CERTIFICATE OF COMPLIANCE

William B. Trescott
Petitioner
v.
The Federal Motor Carrier Safety Administration,
Respondent
As required by Supreme Court Rule 33.1(h), and as determined by my
word processing software, I certify that the enclosed petition for a writ of
certiorari contains 4,835 words, including footnotes, and excluding the parts
of the petition that are exempted by Supreme Court Rule 33.1(d).
Pursuant to 28 U.S.C. ยง 1746, Rule 29.5(c), I declare under penalty of perjury
that the foregoing is true and correct.
Executed on

"S

Xb L I

Respectfully Submitted,

William B. Trescott
26276 Farm to Market Road 457
Bay City, Texas 77414
(979) 244-3134

